MANDELBAUM, FITZSIMMONS, HEWITT & CAIN, P.A.

ATTORNEYS AT LAW

 

 

JOHN N. CAIN, Je

KEIN) FerZeiMiMONS* Telephone (813) 221-0200
SCOTT K. HEWITT Fax (813) 221-8558
BENJAMIN §. STRANZL 2111 SWANN AVENUE m SUITE 200

SAMUEL R. MANDELBAUM, LLM.** TAMPA, FLORIDA Orlando Office Address —
STEPHEN A. SPAID 2499 OLD LAKE MARY RD. #142
NICOLAS B, FERREIRO SANFORD, FL 3271
MICHAEL R RAINEY MAILING ADDRESS

JOHN ARNETT P.O. Box 3373 Website -
(CHARLENE RAMUS-JAFFE: TAMPA, FLORIDA 33601-3373 www.ManFitzLaw.com

+ FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LITIGATOR

+ ADMITTED FL & NY BARS;
FLORIDA BAR HOARD CERTIFIED CIVIL TRIAL LAWYER
FLORIDA BAR BOARD CERTIFIED INTERNATIONAL LAWYER

January 15, 2.021

Scott S. Harris, Clerk

Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

RE: Shane Davis v. Mike Carroll et al;
Supreme Court Case no. SC # 20-872
Eleventh Circuit Case no, 18-14558
US. District Court no. 8:16-cv-998 (M.D.Fla.)

Dear Mr. Harris:

Please note the undersigned counsel would note their appearances in the above case as attorneys
for Respondents Mike Carroll, Wileen Weaver and Pauline Riley.

Pursuant to this Court’s Rule 30.4, Respondents Mike Carroll, Wileen Weaver and Pauline Riley,
by and through undersigned counsel, would hereby respectfully request a 30-day extension of time,
up to and including March 3, 2021, to file their brief in opposition to the Petition for Writ of
Certiorari (“Petition”) as docketed in this Court on December 31, 2020. As zrounds for extension,
Respondents would state:

1. The Respondents in this case are former officials and employees of the Florida Department
of Children and Family Services, a State of Florida agency, and being sued in their official and/or
individual capacities.

2. In this case Petitioner challenges the decision of the U.S. Court of Appeal for the Eleventh
Circuit rendered on July 28, 2020, affirming the U.S. District Court’s final summary judgment
entered in favor of the Respondents.

3. Presently the Respondents’ brief in opposition is due for filing in this Court per this Court’s
Rule 15.3 on January 30, 2021.

4. However, Respondent’s undersigned counsel also has a brief in opposition due around the
same time period in another case before this Court: Tran and Hazen v. City of Holmes Beach and
Florida Department of Environmental Protection, Supreme Court Case no. 20-881. In addition,
Scott S. Harris, Clerk
January 15, 2021
> Page 2 _-

undersigned counsel is currently handling several appeals this month in the state appellate courts
of Florida, and complicated dispositive motions in the U.S. District Court for the Middle District
of Florida.

5. A proper brief in opposition to Petitioner’s detailed Petition will take considerable time and

effort. In light of the other briefs and complicated motions due within the same time period the
brief in opposition is due, good cause exists for a 30-day extension of time.

6. Undersigned counsel has conferred with Petitioner’s counsel Roberto D. Stanziale, Esq.,

who has no opposition to the relief requested herein.

For the reasons stated herein, Respondents respectfully request that the time to file their Response
to the Petition in this case be extended by 30 days up to and including March 1, 2021.

cc:

Roberto D. Stanziale, Esq.
110 S.E. 6" Street; 17" Floor
Ft. Lauderdale, FL 33301

Respectfully Submitted,

MANDELBAUM, FITZSIMMONS, HEWITT &
CAIN, P.A.

/s/ Samuel R. Mandelbaum, Esq.
Samuel Robert Mandelbaum, Esq.,
Member of this Court’s Bar
Florida Bar Number 270806
srm@manfitzlaw.com
Benjamin S. Stranzl, Esq.
Florida Bar Number 102868
bss@manfitzlaw.com
Post Office Box 3373
Tampa, Florida 33601
Telephone: (813) 221-0200
Facsimile: (813) 221-8558
Counsel for Respondents
 

Welcome Samuel Robert Mandelbaum | Sign Out

System Notification Message

In light of security measures being implemented in connection with the upcoming Inauguration, paper
filings will not be received at the Supreme Court Building or at the North Drive on Second Street between
January 15 and January 20. Filings to be submitted on those days may be sent by U.S. Mail or third-party
commercial carrier as provided in Rule 29.2. This change does not affect filing deadlines. In unusual
circumstances where especially fast docketing of a particular document is needed, contact the Clerk’s
Office.

Out of concern for the health and safety of the public and Supreme Court employees, the Supreme Court
Building will be closed to the public until further notice. The Building will remain open for official
business. Please see all COVID-19 announcements here.

 

F New Filing
Create a new Filing request

 

 

My Cases

View cases in which you have entered an appearance. Change contact information, counsel of record designation and email
notifications for those cases.

 

 

‘@ My Filings In Progress - (list of 5)
View Filings that have not been submitted

 
  

Date Filing Type

Title
__Motion for an Extension of Time

Shane Davis, Petitioner V.

 

   

 

 

'm All My Filings (list of 20)
View Filings that have been submitted & filed

 

No Filings Submitted See More...

 

 

Supreme Court of the United States
